U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

International Association of Bridge, Structural, Ornamental and Reiniforcing Iron
Workers, Local 229, AFL-CIO v. National Labor Relations Board
S.Ct. No. 20-1111

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 8,
2021, and placed on the docket on February 12, 2021. The government’s response is due on
March 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1111
INTERNATIONAL ASSOCIATION OF BRIDGE,
STRUCTURAL, ORNAMENTAL AND
REINIFORCING IRON WORKERS, LOCAL 229, AFLCIO
NATIONAL LABOR RELATIONS BOARD

DAVID A. ROSENFELD
WEINBERG ROGER & ROSENFELD
1375 55TH ST.
EMERYVILLE, CA 94608
510-337-1001
COURTNOTICES@UNIONCOUNSEL.NET

